                                                       U.S. DEPARTMENT OF
                                       HOUSING AND URBAN DEVELOPMENT
                                                OFFICE OF INSPECTOR GENERAL




                                                   September 2, 2014


                                                                                                   MEMORANDUM NO:
                                                                                                   2014-CF-1808

Memorandum
TO:                 Dane M. Narode
                    Associate General Counsel, Office of Program Enforcement, CACC

                    //signed//
FROM:               Kimberly Randall
                    Director, Joint Civil Fraud Division, GAW

SUBJECT:            Final Civil Action: NDC Real Estate Management, Inc. Settled Allegations of
                    Falsifying or Modifying Records and Documents to Maximize HUD’s Section 8
                    Housing Assistance Payments

                                                  INTRODUCTION

The Office of Inspector General (OIG) assisted the U.S. Attorney’s Office for the Eastern
District of Kentucky in the investigation of NDC Real Estate Management, Inc. (NDC). The
investigation began due to a qui tam 1 filing in the U.S. District Court for the Eastern District of
Kentucky. The relator alleged that NDC falsified or modified records and documents to
maximize the amount of rental subsidies, known as Section 8 housing assistance payments
(HAP), received by the project owners of Madison Avenue Apartments and Madison Towers
Apartments in Richmond, KY.

                                                   BACKGROUND

The U.S. Department of Housing and Urban Development (HUD) distributes federal funds
through HUD’s Section 8 project-based assistance program to assist eligible very-low and low
income individuals in obtaining decent, safe, and sanitary housing. The Section 8 program
provides rental subsidies in the form of housing assistance payments pursuant to a HAP contract


1
    The False Claims Act allows private persons to file suit for violations of the False Claims Act on behalf of the
    Government. A suit filed by an individual on behalf of the Government is known as a qui tam action, and the
    person bringing the action is referred to as a “relator.”
                                                           Joint Civil Fraud Division
                                            400 State Avenue, Suite 501, Kansas City, KS 66101
                                       Visit the Office of Inspector General Website at www.hudoig.gov
between HUD and the multifamily rental property owner. The Section 8 HAP program is
administered on HUD’s behalf by local public housing agencies.

The owners of the Richmond properties are Madison Avenue Apartments Phase I, Ltd. and
Madison Towers Associates, Ltd. The management agent is NDC, an affiliated entity.

The Kentucky Housing Corporation administers the Section 8 HAP program for Kentucky. The
housing corporation processed the project owners’ requests for assistance payments, called the
Owner’s Certification of Compliance with HUD’s Tenant Eligibility and Rent Procedures (form
HUD-50059), that NDC submitted on the project owners’ behalf, and remitted the Section 8
assistance payments to the project owners for the Richmond properties. Between January 2007
and December 2012, the housing corporation made assistance payments for the Richmond
properties of $4,088,627. 2

                                      RESULTS OF INVESTIGATION

Based, in part, on our investigation of the project owners’ requests for assistance payments and
the supporting documentation, the U.S. Attorney’s Office contended that the Unites States 3 had
civil claims against NDC under the False Claims Act. These civil claims arose from NDC’s
alleged falsification or wrongful modification of the project owners’ requests for assistance
payment forms and the supporting documentation in an attempt to maximize the amount of
assistance payments for the Richmond properties.
On August 4, 2014, NDC agreed to pay HUD $750,000. HUD and NDC entered into this
agreement to avoid the delay, uncertainty, inconvenience, and expense of litigation. The parties
also agreed that the settlement did not constitute an admission of any liability or fault on the part
of either NDC or the project owners, or others as named. 4
                                             RECOMMENDATION

We recommend that HUD’s Office of General Counsel, Office of Program Enforcement,

1A.        Allow HUD OIG to record the $750,000 settlement in HUD’s Audit Resolution and
           Corrective Actions Tracking System as an ineligible cost.


HUD’s Office of General Counsel, Office Program Enforcement has agreed to the
recommendation. No further action is required.



2
    Due to a change in contractors, the actual housing assistance payment amounts were not available for Madison
    Avenue for January 2007 through June 2007. Therefore, a monthly average was used for those months to
    compute the yearly total.
3
    “United States” refers to the United States Department of Justice acting on behalf of HUD.
4
    “Others as named” refers to any of NDC’s or the project owners’ principals, affiliates, shareholders, directors,
    partners, managers, officers, agents, divisions, component parts, representatives, employees, transferees,
    successors, or assigns (or any affiliated persons or entities of same).

                                                            2
